U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                    PUBLIC
                   RELEASE

             NATIONAL OCEANIC AND
       ATMOSPHERIC ADMINISTRATION

             NMFS’s Cooperative Science and
                 Education Program Awards
             Were Not Competitively Selected,
                          CFDA No. 11.455


      Audit Report No. STL-10951-9-0001 / March 1999




                   Office of Audits, Seattle Regional Office
U.S. Department of Commerce                                                                        Audit Report STL-10951-9-0001
Office of Inspector General                                                                                          March 1999

                                                           CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .      1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           5

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                              7

   I.     Cooperative Science and Education Program Is Not Administered
          As a Competition-Based Financial Assistance Program . . . . . . . . . . . . . . . . . . . . . . .                           7

          A. NMFS did not develop and publish
             merit-based evaluation criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            8

          B. Solicitation and review process did not comply
             with competitive requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              8

          C. Noncompetitive awards under the program
             lacked adequate justification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

   II. NOAA Reviews of Proposed Awards Are Not Effective . . . . . . . . . . . . . . . . . . . . . . 13

   III. Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          NOAA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

          OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

  IV. Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

APPENDIX I - NOAA/NMFS Procedures for Solicitation, Review, and Selection of Awards

APPENDIX II - New Awards and Amendments for Fiscal Year 1997

APPENDIX III - NOAA Response to Draft Report
U.S. Department of Commerce                                            Audit Report STL-10951-9-0001
Office of Inspector General                                                              March 1999

                                  EXECUTIVE SUMMARY

The Office of Inspector General conducted an audit of the fiscal year 1997 procedures and
practices for soliciting, reviewing, and selecting applications for financial assistance under the
National Oceanic and Atmospheric Administration’s National Marine Fisheries Service’s
(NMFS) Cooperative Science and Education Program, classified as No. 11.455 in the Catalog of
Federal Assistance. The audit was conducted as part of a Department-wide review of
Commerce’s discretionary financial assistance program initiated at the request of the Chairman
of the Senate Committee on Commerce, Science, and Transportation.

Discretionary financial assistance programs are those programs for which federal agencies have
the authority to independently determine the recipients and funding levels of the awards. These
programs involve a significant portion of the Commerce Department’s budget and operations,
approximately $1 billion annually. If not properly administered, they are susceptible to fraud,
waste, and misuse of funds.

Through the Cooperative Science and Education Program, NMFS provides financial assistance to
institutions of higher learning and education; public and private research organizations affiliated
with institutions of higher learning; and national and international organizations and programs
dedicated to marine and estuarine research, education, and outreach. Assistance is provided for
cooperative science and education on marine and habitat issues that confront local, regional, and
national resources managers, and to develop innovative approaches and methods for marine and
estuarine science. In fiscal year 1997, the program awarded 15 new cooperative agreements, 18
continuation amendments to existing cooperative agreements, and 2 grants, totaling $3.7 million.
All 35 awards were made noncompetitively in response to unsolicited proposals. The original 18
cooperative agreements for which the continuation amendments were awarded were also made
noncompetitively in response to unsolicited proposals.

We examined NMFS’s criteria, procedures and practices for the solicitation, review, and
selection of the Cooperative Science and Education Program awards and found that they did not
comply with departmental and NOAA requirements and were not adequate to guide agency
officials in making merit-based discretionary funding decisions. We found that the program was
not administered as a competition-based financial assistance program, as encouraged by federal
laws and regulations and mandated by Commerce policies and procedures. In addition, we
examined the written justifications prepared for the 35 noncompetitive awards made in fiscal
year 1997 and found them to be inadequate. Specifically, we found that NMFS:

l      Did not comply with the Department’s requirement that merit-based evaluation criteria
       against which program applications for financial assistance could be reviewed, be
       developed and published. (See page 7.)

l      Did not comply with the Department’s requirement that a notice be placed in the Federal
       Register, at least annually, announcing the availability of funds and soliciting award


                                                 i
U.S. Department of Commerce                                            Audit Report STL-10951-9-0001
Office of Inspector General                                                              March 1999

       applications, and specifying the criteria and the process to be used in reviewing and
       selecting applications for funding. (See page 7.)

l      Did not comply with the Department’s requirements that (1) all financial assistance
       awards be made on the basis of a competitive review process, unless a special waiver is
       obtained, and (2) the competitive review process meet minimum standards established by
       the Department. (See page 7.)

As a result of these deficiencies, NMFS cannot provide reasonable assurance that noncompetitive
awards made under the program are merit-based and represent the most effective means of
achieving program objectives.

Lacking competitive award procedures, there is a greater potential for NMFS to make
questionable or even inappropriate noncompetitive program awards in instances where
competition from other sources is available. NMFS risks forgoing the receipt of research
proposals from a broad range of eligible applicants and thus may lose opportunities to increase
the effectiveness of the Cooperative Science and Education Program.

We also found that NOAA grants office did not provide adequate oversight of NMFS’s
administration of the program. (See page 13.)

In its response to the draft report, NOAA stated that the agency agrees that more awards should
be granted competitively for all discretionary funding programs and that a rigorous solicitation
process should be used. NOAA also stated that the agency is continuing to look at its current
processes and will provide more specific comments and details as part of the audit action plan
submitted in response to the final report (see Appendix III).

We recommend that the Assistant Administrator for Fisheries ensure that financial assistance
awards under the Cooperative Science and Education Program are made through a competitive
merit-based process, unless otherwise mandated by law or adequately justified, and that the
award process complies with Department policies and procedures and includes the following four
elements:

       (1)     Widespread solicitation of eligible applications and disclosure of essential
               application and program information in written solicitations;

       (2)     Independent application reviews that consistently apply written program
               evaluation criteria;

       (3)     Written justifications for award decisions that deviate from recommendations
               made by application reviewers; and

       (4)     Adequate written justifications for noncompetitive awards which document
               appropriate market search efforts to validate the determination that there is only

                                                 ii
U.S. Department of Commerce                                          Audit Report STL-10951-9-0001
Office of Inspector General                                                            March 1999

               one source for the anticipated award. The market search should include, at a
               minimum, a preaward notice in the Federal Register stating that the agency
               expects to make a noncompetitive award and inviting other qualified parties to
               inquire.

We also recommend that the Chief Financial Officer/Chief Administrative Officer, as the
Director of the Office of Finance and Administration, which includes the Grants Management
Division, require that grants officer reviews of proposed noncompetitive awards include
procedures designed to objectively determine compliance with Department and NOAA
competitive requirements.

Our recommendations appear on pages 13 and 14.




                                               iii
U.S. Department of Commerce                                            Audit Report STL-10951-9-0001
Office of Inspector General                                                              March 1999

                                       INTRODUCTION

The National Oceanic and Atmosphere Administration’s (NOAA) mission is to describe and
predict changes in the Earth’s environment and to conserve and manage wisely the nation’s
coastal resources. The National Marine Fisheries Service’s (NMFS) mission is to provide
stewardship of living marine resources for the benefit of the nation through science-based
conservation and management and promotion of the health of the marine environment. NOAA,
through NMFS, administers the Cooperative Science and Education Program, classified as No.
11.455 in the Catalog of Federal Domestic Assistance. The program’s objective is to provide
grants and cooperative agreements to furnish biological, socio-economic, and physical science
research on fishery stocks and protected resources that will contribute to their optimal
management, and to develop innovative approaches and methods for marine and estuarine
science.

The Cooperative Science and Education Program does not have legislation authorizing a
financial assistance program and does not receive specific annual appropriations or funding
allotments. Program awards have always been made noncompetitively in response to unsolicited
proposals. The fiscal year 1997 awards, totaling $3,736,104, were funded with appropriations
provided to NMFS for its various fishery programs and under the authorities of the Fish and
Wildlife Coordination Act, Fish and Wildlife Act, and Magnuson Fishery Conservation and
Management Act.

The Fish and Wildlife Coordination Act, as amended, authorizes the Secretary of Commerce to
provide assistance to federal, state, and public and private agencies and organizations in the
development, protection, rearing, and stocking of species of wildlife, resources thereof, and their
habitat, and in controlling losses to the same from disease or other causes. The Fish and Wildlife
Act of 1956, as amended, authorizes the Secretary to perform research services on fish matters,
and to provide assistance for informational services, economic and technological development,
resource conservation, and resource management. The Magnuson Fishery and Conservation Act
authorizes the Secretary to initiate and maintain a comprehensive program of fishery research
designed to acquire knowledge and information on fishery conservation and management and on
the economics of fisheries.

NMFS, through three of its four regional science centers, made 35 awards under the Cooperative
Science and Education Program in fiscal year 1997. All 35 awards were made noncompetitively
to organizations that had submitted unsolicited proposals. Unsolicited proposals are applications
for financial assistance that are not submitted in response to a formal solicitation notice
published in the Federal Register. Three of the proposals were submitted in response to specific
requests from NMFS. The projects and the organizations to be funded had been identified by
NMFS beforehand.

The awards consisted of 15 cooperative agreements, 18 continuation amendments to existing
cooperative agreements, and 2 continuation amendments to existing grants. The awards were
made to six universities. The original awards for which continuation amendments were used

                                                 1
U.S. Department of Commerce                                            Audit Report STL-10951-9-0001
Office of Inspector General                                                              March 1999

were also made noncompetitively in response to unsolicited proposals. NMFS chose the
cooperative agreement as its award mechanism for 15 of the new awards because program
officials planned to be substantially involved in the projects. For the remaining cooperative
agreements, NMFS chose a continuation amendment to an existing agreement or grant because
the projects had been funded in the previous year.

Since there is no specific legislation authorizing the Cooperative Science and Education
Program, nor any specific appropriations for the program, each NMFS regional science center
that participates in the program allocates funds to the program in a different way. The Northeast
Science Center attempts to maintain a consistent funding level for the program from year to year.
The Southeast Science Center each year identifies projects that it would like performed under the
program and establishes a funding level for the projects. The Northwest Science Center does not
set a funding level for the program; project managers identify projects for funding under the
program within individual research project budgets.

Discretionary assistance programs are those for which federal agency officials have the authority
to decide (1) which eligible applicants will receive awards, and (2) how much financial
assistance that will be awarded. Competition is generally recognized as the most effective means
of ensuring that financial assistance awards are made on the basis of merit. One of the primary
purposes of the Federal Grant and Cooperative Agreement Act (31 U.S.C. §6301) is to encourage
competition in the award of federal financial assistance to the maximum extent practicable.

The Office of Management and Budget (OMB) has issued guidelines on administering
competition-based financial assistance programs for use by federal agencies. An interagency
study group, convened in 1979 by OMB to examine competition in financial assistance
programs, determined that financial assistance award processes, to ensure effective competition,
should include three basic elements. These elements, which were discussed in OMB’s June 1980
report, Managing Federal Assistance in the 1980's, are still applicable, and include:

l      Widespread solicitation of eligible applicants and disclosure of essential application and
       program information in written solicitations;

l      Independent application reviews that consistently apply written program evaluation
       criteria; and

l      Written justifications for award decisions that deviate from recommendations made by
       application reviewers.

Also, OMB has issued the following circulars which set forth the policies and procedures to be
followed in administering federal financial assistance programs:

l      OMB Circular A-89, Federal Domestic Program Information, implements The Federal
       Program Information Act (P.L. 95-220) requiring agencies to systematically and
       periodically collect and distribute current information to the public on federal domestic
       assistance programs, which is accomplished through the semiannual publication of the
       Catalog of Federal Domestic Assistance.

                                                2
U.S. Department of Commerce                                            Audit Report STL-10951-9-0001
Office of Inspector General                                                              March 1999

l      OMB Circulars A-102, Grants and Cooperative Agreements with State and Local
       Governments, requires agencies to provide the public with advance notice in the Federal
       Register, or by other appropriate means, of their intended funding priorities for
       discretionary assistance programs unless such priorities are established by federal statute.
       Under A-102, when time permits, an agency must provide the public with an opportunity
       to comment on funding priorities. Finally, A-102 requires all grant awards over $25,000
       to be review for consistency with agency priorities by a policy level official.

l      OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
       with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,
       requires agencies to provide the public with advance notice of their intended funding
       priorities for discretionary assistance programs unless such priorities are established by
       federal statute.

l      OMB Circular A-123, Management Accountability and Control, implements the Federal
       Managers Financial Integrity Act (P.L. 97-255) requiring agencies to establish
       management controls for federal programs and operations, including financial assistance
       programs, that provide reasonable assurance that activities are effectively and efficiently
       managed to achieve agency goals.

Commerce has relied on OMB’s guidelines and circulars in developing and issuing policies and
procedures for its discretionary funding programs. Department Administrative Order (DAO)
203-26, Department of Commerce Grants Administration, requires that (1) all Commerce
financial assistance awards be made on the basis of competitive reviews unless a special waiver
is obtained, (2) competitive review processes meet minimum standards outlined in the DAO, and
(3) all Commerce agencies publish, at least annually, a notice in the Federal Register announcing
the availability of funding, soliciting award applications, and specifying the criteria and the
process to be used in reviewing and selecting applications for funding. In addition,
agency-initiated noncompetitive or unsolicited awards should be adequately justified in writing
as part of an internal control system defined in OMB Circular A-123 and required by DAO 203-
26, Section 4.02 i.

The chart presented on the following page depicts the basic process and controls for the
solicitation, review, and selection of financial assistance awards as set forth in DAO 203-26. The
processes we reviewed during our audit are color coded for this chart and the NOAA/NMFS
process chart located in Appendix I.




                                                3
U.S. Department of Commerce                                                                                                                             Audit Report STL-10951-9-0001
Office of Inspector General                                                                                                                                               March 1999




                                           Department of Commerce Financial Assistance Awards Process
  Congress




                                     LEGISLATIVE AUTHORITY &
                                     APPROPRIATIONS REQUIREMENTS




                                                                                                                                   PREAWARD SCREENING
   Department




                                                                                                                                   * Office of General Counsel Review        FINANCIAL
                                     POLICIES &
                                                                                                                                                                             ASSISTANCE
                                     PROCEDURES                                                                                    * Office of Inspector General Review      REVIEW BOARD
                                                                                                                                     -- Limited Background Check
                                                                                                                                     -- Credit Review
                                                                                                                                     -- Outstanding Audit Issues




                                                        SOLICITATION
                                                                               REVIEW                                                           PREAWARD SCREENING
   Bureau/Program




                                                                                                       SELECTION
                                      POLICIES &        Public announcement
                                      PROCEDURES        and notification of    * Independent Review                                             * Outstanding Accounts
                                                                                                       *   Quantitative Scores                                               SIGNED BY GRANT
                                                        financial assistance      Panel(s)             *   Public Policy Considerations           Receivable                 OFFICER
                                                        opportunities (e.g.,   * Evaluation Criteria   *   Recommend Action                     * Suspensions & Debarments   OR DESIGNATED
                                                        Federal Register,      * Numeric Ranking       *   Decision Fully Justified and         * Award Prepared Properly    OFFICIAL
                                                        Commerce Business                                  Documented
                                                        Daily, Internet Web
                                                        Sites)
   Financial Assistance Applicants




                                                                                                                                                                                AWARD
                                                        PROPOSAL




                                                                                                           4
U.S. Department of Commerce                                          Audit Report STL-10951-9-0001
Office of Inspector General                                                            March 1999

                                   PURPOSE AND SCOPE

This audit was conducted as part of a comprehensive review of the Department of Commerce’s
discretionary funding programs initiated at the request of the Chairman of the Senate Commerce,
Science, and Transportation Committee. The Chairman requested that the Inspectors General of
the Departments of Commerce and Transportation and the National Science Foundation review
the discretionary funding programs of their respective agencies to assess the manner in which
discretionary funding decisions are made. More specifically, the Chairman requested that each
IG review and report on the criteria developed, either statutorily or administratively, to guide
agency officials in making discretionary spending decisions, and on the extent to which the
criteria are appropriately applied.

We are conducting our Department-wide review in two phases: a survey phase and an individual
program audit phase. During the survey phase, we identified and examined the body of laws,
regulations, and other guidance applicable to the administration of federal financial assistance
programs. We also examined the authorizing legislation, provided by Department officials, for
each Commerce financial assistance program and classified each program as either a “full
discretion” program or a “limited discretion” program, based on the extent to which the
legislation limits the agency’s authority to independently determine the recipients and funding
levels of the awards made under the program. Finally, we examined the fiscal year 1997
appropriations legislation to identify legislatively mandated awards and reviewed accompanying
conference and committee reports to identify projects recommended for funding. No
legislatively mandated awards were found.

During the second phase of our review, we are conducting individual audits of the award
solicitation, review, and selection processes of each program we have classified as a “full
discretion” program, including the Cooperative Science and Education Program. We are
evaluating the adequacy of each program’s established award procedures and criteria for
evaluating individual applications. For those programs with procedures deemed to be adequate,
we are ascertaining whether they were followed in making awards in fiscal year 1997. For those
programs with procedures considered to be inadequate or lacking, we are reviewing how the
fiscal year 1997 award decisions were made. Finally, we are examining the legislatively
mandated projects identified for each program and determining their significance and impact on
fiscal year 1997 award decisions. We plan to issue individual reports, with any appropriate
recommendations, on each program, followed by a capping report summarizing the results of the
individual audits and providing recommendations for the Department and/or its bureaus.

On July 21, 1998, the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Commerce, Science, and Transportation
Committee on the Department’s discretionary funding programs. The Acting IG reported on the
survey phase of the OIG review, and discussed some of the preliminary observations from the
individual program audits.



                                               5
U.S. Department of Commerce                                          Audit Report STL-10951-9-0001
Office of Inspector General                                                            March 1999

This performance audit focused on funding decisions made during fiscal year 1997 under the
Cooperative Science and Education Program. Specifically, we:

l      Reviewed the program authorization and other information published in the CFDA and
       provided by NOAA’s Office of Legislative Affairs to identify criteria for funding
       decisions.

l      Reviewed policies and procedures for soliciting, reviewing and selecting recipients for
       funding (see Appendix I for flowchart of process). We also reviewed NOAA’s Grants
       and Cooperative Agreements Manual as it applied to the solicitation, review, and
       selection process and assessed whether it was adequate and in accordance with DAO 203-
       26, Department of Commerce Grants Administration, and Office of Federal Assistance
       Financial Assistance Notice No. 17, Department of Commerce Guidelines for the
       Preparation of Federal Register Notices Announcing the Availability of Financial
       Assistance Funds -- Requests for Applications.

l      Compared NOAA/NMFS’s procedures with its practices to determine if the process
       contained adequate internal controls to provide for competitive, merit-based awards.

l      Examined pertinent documents in individual program award files to determine if
       departmental and NOAA policies and procedures were followed.

l      Interviewed NOAA/NMFS program office officials concerning NOAA/NMFS’s
       solicitation, review, and selection procedures.

l      Examined fiscal year 1997 appropriations legislation to identify legislatively mandated
       projects and the accompanying committee and conference reports to identify projects
       recommended for funding under this program.

We did not rely on computer-based data supplied by NOAA and OEAM as a basis for our audit
findings and recommendations. We therefore conducted neither tests of the reliability of the
data, nor of the controls over the computer-based system that produced the data.

We performed the audit fieldwork at the NMFS Northwest Science Center during May and June
1998. We conducted the audit in accordance with generally accepted government auditing
standards, and under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.




                                               6
U.S. Department of Commerce                                           Audit Report STL-10951-9-0001
Office of Inspector General                                                             March 1999

                          FINDINGS AND RECOMMENDATIONS

We found that NMFS’s criteria, procedures and practices for the solicitation, review, and
selection of the Cooperative Science and Education Program awards did not comply with
departmental and NOAA requirements and were not adequate to guide agency officials in
making merit-based discretionary funding decisions. NMFS does not administer the program as
a competition-based financial assistance program. NMFS has not developed and published
merit-based evaluation criteria against which applications for funding could be reviewed, does
not annually announce the program in the Federal Register, and makes all awards under this
program noncompetitively in response to unsolicited proposals.

In addition, we reviewed the noncompetitive justifications for the 35 awards made in fiscal year
1997 and found them to be inadequate because NMFS did not provide sufficient support for the
unique applicant capabilities cited, did not correctly demonstrate that the awards were
legislatively mandated, and/or did not demonstrate that cited legislative authorities limited
awards to specific recipients. NMFS’s practices do not comply with the Department’s and
NOAA’s requirements to seek maximum program competition. We also found that reviews
performed by the NOAA grants office of the proposed awards did not question NMFS’s lack of
competitive award procedures or the validity of the noncompetitive award justifications. As a
result, NOAA/NMFS cannot provide reasonable assurance that noncompetitive awards made
under the program are merit-based and represent the most effective means of achieving program
objectives.

I.     Cooperative Science and Education Program Is Not Administered
       As a Competition-Based Financial Assistance Program

NMFS’s Cooperative Science and Education Program is not administered as a competition-based
financial assistance program, as encouraged by federal laws and regulations and mandated by
Department of Commerce policies and procedures. All of the awards made under the program
were made noncompetitively in response to unsolicited proposals. We examined the written
justifications prepared for the 35 noncompetitive awards made in fiscal year 1997 and found
them to be inadequate. Specifically, we found that NMFS:

l      Did not comply with the Department’s requirement that merit-based evaluation criteria
       against which program applications for financial assistance could be reviewed, be
       developed and published.

l      Did not comply with the Department’s requirement that a notice be placed in the Federal
       Register, at least annually, announcing the availability of funds and soliciting award
       applications, and specifying the criteria and the process to be used in reviewing and
       selecting applications for funding.

l      Did not comply with the Department’s requirements that (1) all financial assistance
       awards be made on the basis of a competitive review process, unless a special waiver is
       obtained, and (2) the competitive review process meet minimum standards established by
       the Department.

                                                7
U.S. Department of Commerce                                             Audit Report STL-10951-9-0001
Office of Inspector General                                                               March 1999


As a result of these deficiencies, NMFS cannot provide reasonable assurance that noncompetitive
awards made under the program are merit-based and represent the most effective means of
achieving program objectives.

A.     NMFS did not develop and publish
       merit-based evaluation criteria

The NOAA Grants and Cooperative Agreements Policy Manual, Chapter 1, Section A.4.,
requires that applications for financial assistance be reviewed by a panel of independent
reviewers in accordance with published criteria. The manual states that the criteria used for
evaluating applications must be published as part of the request for applications and prohibits
scoring against unpublished criteria. However, NMFS did not develop and publish merit-based
evaluation criteria against which competing program applications could be reviewed.

In particular, the agency did not place a notice in the Federal Register announcing the
availability of funding, soliciting competing applications for funding, and specifying the criteria
and the process to be used in reviewing and selecting applications for funding under the
Cooperative Science and Education Program for fiscal year 1997. Also, the NMFS Cooperative
Science and Education Program summary, published in the Catalog of Federal Domestic
Assistance, does not cite program-specific evaluation criteria. The summary simply states that
proposals will be initially evaluated by the appropriate NMFS Science and Research Center, and
are subject to review for technical merit, soundness of design, competency of the applicant to
perform the proposed work, potential contribution of the project to national or regional research
and education goals, and appropriateness and reasonableness of proposed costs. In order to be
adequate to facilitate a merit-based evaluation process, criteria used to evaluate applications for
federal financial assistance must not be general in nature, but as specific as possible with weights
assigned to each criterion.

B.     Solicitation and review process did not comply
       with competitive requirements

Department Administrative Order 203-26, Section 4.02.b., requires Department bureaus to
publish an annual notice in the Federal Register for each financial assistance program
announcing the availability of funding, soliciting applications for funding, and specifying the
criteria and the process to be used in reviewing and selecting applications for funding. Section
4.02.f. also encourage the bureaus to publish notices in other widely distributed publications,
such as the Commerce Business Daily, to ensure widespread notice of funding opportunities.
Bureaus can also prepare and send requests for proposals directly to organizations known or
believed to be qualified. Also, NOAA’s Grants and Cooperative Agreements Policy Manual,
Chapter 1, Section A.4., states that it is NOAA’s policy to seek maximum competition for its
discretionary grants and cooperative agreements. To accomplish this, the manual states that
when appropriate, program offices should publish requests for applications in the Federal
Register or otherwise solicit applications from all eligible organizations.

                                                 8
U.S. Department of Commerce                                           Audit Report STL-10951-9-0001
Office of Inspector General                                                             March 1999


In addition, Department Administrative Order 203-26, Section 4.02.a., requires the establishment
of selection criteria for use in evaluating applications submitted for new awards. Section 4.02.h.
requires awards be made on the basis of competitive review, and Section 4.02.h.1.(e) requires the
use of the selection criteria in evaluating individual applications. Unless a program receives a
waiver of competitive review requirements, awards under the program are generally required to
be made on the basis of competitive review.

However, despite the Department and NOAA policies, NMFS did not announce the Cooperative
Science and Education Program in the Federal Register or Commerce Business Daily, and did
not establish merit-based criteria for evaluating proposals. By not announcing the program and
establishing award selection criteria as required, NMFS did not comply with Department as well
as its own policies and missed an important opportunity to seek potential program competition.
In addition, NMFS may have encouraged the use of noncompetitive awards by not developing
selection criteria for use in making awards for program needs when the anticipated awards
cannot be properly exempted from competitive review requirements.

Although NMFS did not announce the Cooperative Science and Education Program in the
Federal Register, it still could have placed preaward notices in the Federal Register announcing
its intent to fund specific program projects and requesting proposals or inviting inquires from
interested organizations. However, NMFS did not publish individual preaward notices in the
Federal Register for any of the 35 awards NMFS funded on the basis of noncompetitive
justifications. In our opinion, the publishing of preaward notices would have provided (1) the
public with an opportunity to comment on the proposed projects, (2) other qualified recipients an
opportunity to submit proposals for funding, and (3) NMFS officials with independent support
for determining whether a recipient is uniquely qualified to perform proposed projects.

The 35 fiscal year 1997 awards made under the Cooperative Science and Education Program
were made at the request of the NMFS Northeast, Southeast, and Northwest Science Centers.
Each science center used a different selection and review process as described below.

Northeast Science Center

The Northeast Science Center provides funding to three universities: Rutgers University
(4 awards: $677,000), the University of Massachusetts (3 awards: $192,317), and the University
of Rhode Island (12 awards: $1,010,809). According to NMFS, the funding of awards was
limited from the outset to proposals from these three universities because NMFS maintains
cooperative agreements with each of these universities under the Cooperative Science and
Education Program. However, the cooperative agreements do not obligate NMFS to provide
funding to the universities nor do they restrict NMFS from providing funding to other potential
recipients.

The Northeast Science Center does not use a formal documented selection process in making
Cooperative Science and Education Program awards. Each year a list of research projects is
generated based on input from NMFS staff. The list is distributed and a call for pre-proposals is

                                                9
U.S. Department of Commerce                                             Audit Report STL-10951-9-0001
Office of Inspector General                                                               March 1999

made to the faculty of the three universities. A general market survey is not conducted, nor is a
general request for proposals or list of priorities published.

The participating universities are encouraged to work with NMFS staff in developing their
projects. The pre-proposals go through an agency peer review. Those that survive the peer
review are forwarded to a Coordinating Committee. There are three different coordinating
committees, each composed of NMFS personnel and representatives of the respective university.
Each committee, along with agency scientists, and sometimes scientists outside the agency with
appropriate expertise, evaluate how well the proposals meet NMFS and university priorities.
After the projects are chosen, full proposals are requested. Each coordinating committee
evaluates the full proposals and selects the ones to be funded. If there are more proposals
provided than can be funded, the coordinating committee performs an informal undocumented
ranking process. Decisions are reached through discussion.

Southeast Science Center

The Southeast Science Center provides funding to one university, North Carolina State
University. This university represents the Cooperative Institutes for Fisheries and Oceanography
(CIFO), a coalition of universities in the North Carolina State University system and Duke
University. A North Carolina State University faculty member acts as CIFO’s coordinator,
performs CIFO’s administrative duties, and provides some input in directing the grant funds.
The funding of the award is limited from the outset to the North Carolina State University
proposal as the CIFO representative. NOAA maintains a memorandum of understanding with
the University of North Carolina, whose campuses include North Carolina State University, and
Duke University concerning the establishment of CIFO. However, the memorandum of
understanding does not obligate NMFS to provide funding to CIFO universities nor does it
restrict NMFS from providing funding to other potential recipients.

The Southeast Science Center does not use a formal documented selection process in making the
Cooperative Science and Education Program award. Each year the award goes to North Carolina
State University as the CIFO representative. In fiscal year 1997 NMFS awarded CIFO two
amendments for $461,893. The two amendments were made during the same year because, as
the year progressed, more funds became available for known needs.

After the basic grant is awarded by NMFS, CIFO performs an internal project selection process.
CIFO receives unsolicited proposals and, in some instances, specifically requests that proposals
be submitted; however, no general request for proposals or list of priorities is published. The
proposals received are reviewed for technical merit, and if they also meet CIFO’s objectives, as
outlined in the memorandum of understanding with NOAA, the proposals are sent out to
nonparticipating university experts for peer review. NMFS also participates in this process.
Through e-mails, telephones calls, and other informal communication, NMFS expresses its goals
for the funds. CIFO chooses the final projects to be funded using input from peer review,
NMFS, and CIFO directly. CIFO then distributes the funds to various universities who, in turn,
distribute the funds to individuals to perform certain projects. This entire process is informal and

                                                10
U.S. Department of Commerce                                             Audit Report STL-10951-9-0001
Office of Inspector General                                                               March 1999

undocumented. CIFO does not have written guidelines for the proposal selection process, nor
does North Carolina State University.

Northwest Science Center

The Northwest Science Center provides funding to two universities: the Oregon State University
(6 awards: $349,536) and the University of Washington (8 awards: $1,044,549). NMFS
maintains a memorandum of understanding with each university under the Cooperative Science
and Education Program. However, the memorandums of understanding do not obligate NMFS to
provide funding to the universities or restrict NMFS from providing funding to other potential
recipients.

The Northwest Science Center does not have a documented solicitation, review, and selection
process for Cooperative Science and Education Program awards. Proposals are initiated as a
result of interaction between science center program managers and university faculty. Proposed
projects can be initiated by either the science center staff or university faculty. If funding is
available and a project meets the needs of the science center, NMFS requests that a formal
project proposal be submitted. The proposals are reviewed individually to determine if they
(1) meet the general goals of NOAA/NMFS and (2) comply with administrative requirements.

C.     Noncompetitive awards under the program
       lacked adequate justification

In fiscal year 1997, NOAA/NMFS made 15 cooperative agreements, 18 continuation
amendments to existing cooperative agreements, and 2 continuation amendments to existing
grants under the Cooperative Science and Education program, totaling $3,736,104. These
awards were made to six universities. A list of awards is provided as Appendix II. The awards
were made noncompetitively to organizations that had submitted unsolicited proposals for NMFS
funding consideration. We concluded that NMFS had no basis for not competing any of the 35
awards.

We examined the written justifications for all 35 noncompetitive awards and noted that NMFS
justified all the awards on the basis that each proposed recipient possessed unique capabilities
that made it either the best or the only organization qualified to do the work. In our opinion, all
of the awards made under the Cooperative Science and Education program had inadequate
justifications because NMFS either did not provide sufficient support for the unique capabilities
cited or did not correctly demonstrate that the awards were legislatively mandated. In particular,
none of the noncompetitive justifications cited general market surveys performed to determine if
other institutions were interested or capable of doing the work.

Unsolicited proposals are applications for financial assistance that are not submitted in response
to a formal solicitation notice published in the Federal Register. Because unsolicited proposals
are a means by which unique or innovative ideas can be made available to accomplish specific


                                                11
U.S. Department of Commerce                                             Audit Report STL-10951-9-0001
Office of Inspector General                                                               March 1999

projects, scientific organizations like NOAA and NMFS encourage their submission. DAO 203-
26, Section 4.02.i, allows the receipt of unsolicited proposals, but states that no unsolicited
proposal may be funded outside the competitive process if that proposal falls within the program
goals of a competitive program. In addition, the receipt of a technically acceptable unsolicited
proposal does not, in itself, justify a noncompetitive award. DAO 203-26, Section 4.02.i., also
states that the decision to fund an unsolicited proposal must be fully justified and included in the
official grant file.

While NMFS wrote noncompetitive justifications for the 35 awards, the justifications do not cite
any factual basis for the assertions that the applicants possessed unique capabilities. Since
NMFS also did not comply with the Department’s requirement that a notice be published in the
Federal Register soliciting applications for fiscal year 1997 awards under the Cooperative
Science and Education Program, it lacked support for its assertions that the organizations that
submitted unsolicited proposals were the only ones that could perform the work. Instead, the
justifications contain statements by program office officials that are based on knowledge
accumulated through their past working relationships with recipients. Without documented
support, a belief that an organization possesses unique qualifications does not justify making a
noncompetitive award because there may be other qualified applicants unknown to program
officials. Such a belief should still be tested through a competitive review process that includes
widespread solicitation of eligible applicants, through announcement in the Federal Register and
other means.

We believe that the justification for a noncompetitive award should include a documented market
search to verify or confirm that there is only one source. The market search should include, at a
minimum, a preaward notice in the Federal Register stating that the agency expects to make a
noncompetitive award and inviting other interested and qualified parties to inquire. Such a
practice would be similar to the requirements in the Federal Acquisition Regulation (FAR) for
contracting (see 48 FAR, Part 6.302). In addition, the review process for a noncompetitive
award should ensure that the proposal meets the program goals. NMFS did not publish
individual preaward notices for the awards.

NMFS made one award (No. NA77FE0493) in the amount of $328,105 to the University of
Rhode Island on the basis of language contained in the fiscal year 1997 Senate appropriations
conference report. However, the award was not specifically contained in the fiscal year 1997
Appropriations Act and was, therefore, not legislatively mandated.


II.    NOAA Reviews of Proposed Awards Are Not Effective

Reviews performed by the NOAA grants office of the 35 proposed awards did not question
NMFS’s lack of competitive award procedures or the validity of the noncompetitive award
justifications. The science centers provided information to NMFS regional offices who prepared
and forwarded, as required, the justifications and related documents for the proposed
noncompetitive awards to the grants office for review and approval. However, the grants office’s

                                                 12
U.S. Department of Commerce                                             Audit Report STL-10951-9-0001
Office of Inspector General                                                               March 1999

review of the proposed awards did not ensure the program office’s compliance with applicable
Department and NOAA competitive requirements.

DAO 203-26, Section 4.01., requires that each organization unit establish a central liaison to
ensure that its programs comply with federal, departmental, and organization grant requirements
and to review grant documents for compliance. The NOAA Office of Finance and
Administration, which includes the Grants Management Division, fulfills this responsibility for
NOAA.

The grant files do not indicate whether the Grants Management Division questioned why the
NMFS program office did not prepare and submit the required annual Federal Register program
announcement. The files also do not show whether the grants office determined if the
noncompetitive justifications were factually based, or if the program office had made any attempt
to identify other qualified sources before submitting the noncompetitive awards. Grants
Management Division personnel stated that they relied on and accepted as valid the technical
descriptions of perceived unique capabilities presented in the program office’s award
justifications. They further stated that while they reviewed the justifications to determine if they
addressed one or more of the acceptable reasons for a noncompetitive award, they did not verify
the information because the office has no authority over the offices submitting the justifications,
they can not make field trips to verify information, and scientists involved would not consider
them qualified to make the type of scientific determinations included in the noncompetitive
justifications. Therefore, we believe the reviews were not effective in ensuring the science
centers’ compliance with Department and NOAA competitive policies.

III.   Conclusions

We concluded that NMFS’s fiscal year 1997 award process under the Cooperative Science and
Education Program was not adequate to guide agency officials in making merit-based
discretionary funding decisions because NMFS did not develop and publish merit-based
evaluation criteria and the noncompetitive award of 35 financial assistance cooperative
agreements and grants did not comply with Department and NOAA policies of seeking
maximum competition. Also, NMFS’s written justifications for the awards did not cite any
factual basis for its claims that the 35 applicants had unique capabilities and did not correctly
demonstrate that the awards were legislatively mandated by citing legislative authorities that
limited the awards to specific recipients. Despite these facts, the NOAA grants office did not
question the awards. By not following competitive procedures, NOAA/NMFS could make
questionable or even inappropriate noncompetitive program awards in instances where
competition is available. In addition, by not seeking competition, NMFS misses the opportunity
to consider proposals containing the ideas, technology, or services that other qualified
organizations can produce and thus lose an opportunity to increase program quality.

NOAA Response

In its response to the draft report, NOAA stated that the agency agrees that more awards should

                                                13
U.S. Department of Commerce                                            Audit Report STL-10951-9-0001
Office of Inspector General                                                              March 1999

be granted competitively for all discretionary funding programs and that a rigorous solicitation
process should be used. NOAA also stated that the agency is continuing to look at its current
processes and will provide more specific comments and details as part of the audit action plan
submitted in response to the final report.

OIG Comments

NOAA’s concurrence that more awards should be competitively awarded is a positive reaction to
this report. We look forward to the Cooperative Science and Education Program moving in that
direction. We have modified our recommendations in response to discussions with NOAA
officials regarding the draft report to clarify that we did not intend to suggest that all awards
must be made competitively. We understand that an unsolicited research proposal may very well
be justified for noncompetitive funding on an exception basis. However, we are emphasizing
that an entire program should not be administered on a noncompetitive basis, as this one is,
unless mandated by law.

IV.    Recommendations

We recommend that the Assistant Administrator for Fisheries ensure that financial assistance
awards under the Cooperative Science and Education Program are made through a competitive
merit-based process, unless otherwise mandated by law or adequately justified, and that the
award process complies with Department policies and procedures and includes the following four
elements:

       (1)     Widespread solicitation of eligible applications and disclosure of essential
               application and program information in written solicitations;

       (2)     Independent applications reviews that consistently apply written program
               evaluation criteria;

       (3)     Written justifications for award decisions that deviate from recommendations
               made by application reviewers; and

       (4)     Adequate written justifications for noncompetitive awards which document
               appropriate market search efforts to validate the determination that there is only
               one source for the anticipated award. The market search should include, at a
               minimum, a preaward notice in the Federal Register stating that the agency
               expects to make a noncompetitive award and inviting other qualified parties to
               inquire.

We also recommend that the Chief Financial Officer/Chief Administrative Officer, as the
Director of the Office of Finance and Administration, which includes the Grants Management
Division, require that grants officer reviews of proposed noncompetitive awards include
procedures designed to objectively determine compliance with Department and NOAA
competitive requirements.

                                                14
U.S. Department of Commerce                                                                        Audit Report STL-10951-9-0001
Office of Inspector General                                                                                          March 1999

                                                                                                                              APPENDIX I
                                                                                                                               Page 1 of 1
                       NOAA/NMFS Procedures for Review and Selection of Awards




                                           Application submitted in response to
                                           legislative language or direct request
                                           from NOAA/NMFS




                                                          Program
                                                Office determines if should         No
                                                                                            Application
                                                be funded and if funds are
                                                                                             rejected
                                                         available


                                                         Yes




         Complete a Financial Assistance   Complete a Review Checklist
                                                                                         Complete Sole Source Justification
         Information Sheet:
                                            -- Competitive, sole source or
                                               congressionally mandated                  Submitted by Director/Chief of the
          --   Bureau
                                            -- Project analysis                          office or his designee
          --   Applicant
          --   Award period                 -- Conflict of interesrt
                                            -- Special award conditions                  Requests waiver to minimum
          --   Proposed amount
                                            -- Reporting requirements                    competitive review process and
          --   CFDA no.
                                            -- Grant or cooperative agreement?           gives justification
          --   Scope of work
          --   Statutory authority




                                                  Send to NOAA Grants
                                                  Management Office for
                                                   review and approval




                                                  Send to Department for                                    Solicitation Process
                                                   review and approval


                                                                                                             Review Process



                                                                                                            Selection Process
U.S. Department of Commerce                                                  Audit Report STL-10951-9-0001
Office of Inspector General                                                                    March 1999


                                                                                              APPENDIX II
                                                                                                Page 1 of 3


                 COOPERATIVE SCIENCE AND EDUCATION PROGRAM

                            Awards and Amendments for Fiscal Year 1997

 Number          Type                    Recipient                     Type of Work              Amount

 Northeast Science Center

 NA77FE0519      New Cooperative         Rutgers University            Atlantic Bluefish         $ 442,000
                 Agreement                                             Stock Research

 NA77FE0520      New Cooperative         Rutgers University            Living Marine Habitat       102,000
                 Agreement                                             Research

 NA77FE0561      New Cooperative         Rutgers University            Essential Fish Habitat      73,000
                 Agreement                                             Research

 NA67FE410       Amendment to            Rutgers University            Recreational Anglers        60,000
                 Cooperative Agreement                                 Study

 NA77FE0497      New Cooperative         University of Massachusetts   Cooperative Marine          57,766
                 Agreement                                             Education

 NA77FE0498      New Cooperative         University of Massachusetts   Atlantic Salmon             25,129
                 Agreement                                             Research

 NA67FE0420      Amendment to            University of Massachusetts   North Atlantic             109,422
                 Cooperative Agreement                                 Fisheries

 NA77FE0493      New Cooperative         University of Rhode Island    Narragansett Bay           328,105
                 Agreement                                             Joint Study

 NA77FE0130      New Cooperative         University of Rhode Island    Lobster Habitat in          98,002
                 Agreement                                             Narragansett Bay

 NA77FE0496      New Cooperative         University of Rhode Island    Atlantic Bluefin            72,503
                 Agreement                                             Tuna Market

 NA77FE0495      New Cooperative         University of Rhode Island    Salmon Temperature          34,895
                 Agreement                                             Monitoring

 NA77FE0494      New Cooperative         University of Rhode Island    Cod and Haddock             30,702
                 Agreement                                             Early Life Stages

 NA47FE0457      Amendment to            University of Rhode Island    Zooplankton on             150,000
                 Cooperative Agreement                                 Georges Bank
U.S. Department of Commerce                                                 Audit Report STL-10951-9-0001
Office of Inspector General                                                                   March 1999

                                                                                           APPENDIX II
                                                                                             Page 2 of 3

 NA67FE0383      Amendment to            University of Rhode Island   Right Whale              $ 122,564
                 Cooperative Agreement                                Computer Database

 NA67FE0425      Amendment to            University of Rhode Island   Economic Status of         74,806
                 Cooperative Agreement                                NE Fishing Vessels

 NA67FE0385      Amendment to            University of Rhode Island   Maturity in Female         30,762
                 Cooperative Agreement                                Flounder and Cod

 NA57FE0574      Amendment to            University of Rhode Island   Georges Bank               24,403
                 Cooperative Agreement                                Essential Fish Habitat

 NA57FE0542      Amendment to            University of Rhode Island   Remote Sensing             23,301
                 Cooperative Agreement                                Laboratory

 NA67FE0384      Amendment to            University of Rhode Island   Acoustic Tracking for      20,766
                 Cooperative Agreement                                Harbor Porpoises

 Southeast Science Center

 NA56FE0551      Amendment to Grant      North Carolina State         Recruitment               350,909
                                         University                   Population Study

 NA56FE0551      Amendment to Grant      North Carolina State         Recruitment               110,984
                                         University                   Population Study

 Northwest Science Center

 NA77FE0168      New Cooperative         Oregon State University      Ocean Ecology of           93,700
                 Agreement                                            North Pacific

 NA77FE0490      New Cooperative         Oregon State University      Rockfish Food              27,607
                 Agreement                                            Habitats

 NA77FE0489      New Cooperative         Oregon State University      Age and Growth of          22,773
                 Agreement                                            Sablefish

 NA67FE0325      Amendment to            Oregon State University      Biology of West            93,033
                 Cooperative Agreement                                Coast Salmon
U.S. Department of Commerce                                              Audit Report STL-10951-9-0001
Office of Inspector General                                                                March 1999

                                                                                          APPENDIX II
                                                                                            Page 3 of 3

 NA67FE0328     Amendment to            Oregon State University    Zooplankton Survey        $ 74,885
                Cooperative Agreement                              Data

 NA67FE0324     Amendment to            Oregon State University    West Coast Fisheries        37,538
                Cooperative Agreement                              Data Program

 NA77FE0267     New Cooperative         University of Washington   Cooperative                394,204
                Agreement                                          Education

 NA77FE0535     New Cooperative         University of Washington   Cooperative                 25,685
                Agreement                                          Education

 NA67FE0392     Amendment to            University of Washington   Pacific Salmon             175,000
                Cooperative Agreement                              Conservation

 NA57FE0548     Amendment to            University of Washington   Salmon and Steelhead       144,150
                Cooperative Agreement                              in Snake River Basin

 NA67FE0394     Amendment to            University of Washington   Juvenile Salmon and         99,666
                Cooperative Agreement                              Steelhead

 NA67FE0393     Amendment to            University of Washington   Electromagnetic             83,695
                Cooperative Agreement                              Reading Tagged Fish

 NA67FE0396     Amendment to            University of Washington   Fish Bacteria Study         75,952
                Cooperative Agreement

 NA67FE0395     Amendment to            University of Washington   Bycatch in Deepwater        46,197
                Cooperative Agreement                              Trawl Fishery

                                                                                 Total       $3,736,104
